No. 20-5610

In the Supreme Court of the United States
ERIC J. BROWN,
Petitioner
vs.
STATE OF LOUISIANA,
Respondent
ON PETITION FOR A WRIT OF CERTIORARI
TO THE LOUISIANA COURT OF APPEAL, FIFTH CIRCUIT

PROOF OF SERVICE

Undersigned counsel certifies that pursuant to Supreme Court Rule 29.3, the
accompanying Brief in Opposition was served on the Defendant, through his counsel
of record, on January 15, 2021 by email, and on January 15, 2021 by United States
mail properly addressed and with first-class postage prepaid, at the following
addresses:
Christopher Albert Aberle
Louisiana Appellate Project
P.O. Box 8583
Mandeville, LA 70470-8583
aberle@appellateproject.org
Executed on January 15, 2021.
/s/ Elizabeth Murrill
ELIZABETH BAKER MURRILL

